No. ________
In the
Supreme Court of the United States
OCTOBER TERM, 2019

EDWARD MAHAN,
Petitioner,
V.

UNITED STATES OF AMERICA
Respondent.

MOTION FOR LEAVE TO
PROCEED IN FORMA PAUPERIS

AMY R. BLALOCK
Attorney-At-Law
P.O. Box 765
Tyler, TX 75710
Texas Bar Card No. 02438900
Attorney for Petitioner

MOTION FOR LEAVE TO
PROCEED IN FORMA PAUPERIS
Pursuant to Rule 39 of the Supreme Court Rules and Title 18, United States
Code, Section 3006(d)(6), Petitioner asks leave to file the attached Petition for Writ
of Certiorari to the United States Supreme Court without prepayment of costs and to
proceed in forma pauperis.
Petitioner was represented by the undersigned counsel, appointed by the
Southern District of Texas pursuant to the Criminal Justice Act, on appeal to the
United States Court of Appeals for the Fifth Circuit.

Respectfully submitted,

/s/ Amy R. Blalock
AMY R. BLALOCK
Attorney-At-Law
P.O. Box 765
Tyler, TX 75710
Texas Bar Card No. 02438900
Attorney for Petitioner

CERTIFICATE OF SERVICE
I hereby certify that on the 11th day of September, 2020, I served one (1) copy
of the foregoing Motion For Leave To Proceed In Forma Pauperis on the following
individuals by mail (certified mail return receipt requested) by depositing same,
enclosed in post paid, properly addressed wrapper, in a Post Office or official
depository, under the care and custody of the United States Postal Service, or by other
recognized means pursuant to the Rules of the Supreme Court of The United States
of America, Rule 29:
Solicitor General
U.S. Department of Justice
Washington, D.C. 20530
Carmen Castillo Mitchell
US Attorney’s Office
Southern District of Texas
Houston, Texas
EDWARD MAHAN
USM # 13624-479
FCI BEAUMONT LOW
FEDERAL CORRECTIONAL INSTITUTION
P.O. BOX 26020
BEAUMONT, TX 77720

/s/ Amy R. Blalock
AMY R. BLALOCK
Attorney for Petitioner

